June 7, 2000
Audit Report No. 00-022


Material Loss Review - The Failure of
Pacific Thrift and Loan Company
Woodland Hills, California
                          TABLE OF CONTENTS
OVERVIEW                                                                      1

HISTORY AND BACKGROUND                                                        3

OBJECTIVES, SCOPE, AND METHODOLOGY                                            6

RESULTS OF AUDIT                                                              8

CAUSES OF PTL’S FAILURE AND THE RESULTING MATERIAL
 LOSS TO THE BANK INSURANCE FUND                                              9

     A General Overview of the Loan Securitization Process                    10

     The Mechanics Behind the PTL/PAMM IORRs                                  10

     Concentration in Interest-Only Residual Receivables Led to
           PTL's Failure                                                      12

           Changes in Portfolio Composition Result in Asset Growth            13
           Excessive Overhead Expenses Eliminate Earnings                     14
           The Asian Economic Crisis Further Exacerbates PTL's Earnings and
            Threatens PTL's Tenuous Liquidity Position                        17
           The Final Decline of Capital Signals the Demise of PTL             17

ASSESSMENT OF DOS’S SUPERVISION OF PTL                                        19

     The Quality of PTL's Capital Base Was Negatively Impacted by
      the Implementation of FAS 125                                           20

           Tier 1 Leverage Capital Ratio Fails to Reflect the Risks
             Associated with IORRs                                            23
           The Risk-Based Capital Ratio Reflects the Risks
             Associated with IORRs                                            23
           DOS Used Prompt Corrective Action Appropriately                    24
           Interagency Examination Guidance and Other
             Regulatory Actions                                               25

     Recommendation                                                           25

     Concentration in High-Risk IORRs Contributed to
      PTL's Insolvency                                                        25

     Recommendation                                                           28
      Parent Companies of Industrial Loan Companies Escape Inclusion
       Under the Bank Holding Company Act and Are Unregulated Entities      28

      Recommendations                                                       30

      Lack of Access to External Accounting Firm's Workpapers Further
       Delays DOS's Assessment of the Valuation of the IORRs                30

             PTL Instructed to Obtain an Independent Valuation              30
             DOS Attempts to Gain Access to E&Y's Model and Workpapers      32

      Recommendation                                                        33

DOS'S ACTIVITIES IN RESPONSE TO RECENT BANK FAILURES                        33

CORPORATION COMMENTS AND OIG EVALUATION                                     36

GLOSSARY                                                                    37

APPENDIXES
     Appendix I - A DETAILED DISCUSSION OF THE
                   SECURITIZATION PROCESS                                   42
          The Securitization Process and the Parties Involved               42
           Credit Enhancements Increase the Protection Against
             Losses to the Investor                                         42
           Interest-Only Residuals: A By-Product of the
             Securitization Process                                         43
     Appendix II - CORPORATION COMMENTS                                     45
     Appendix III - MANAGEMENT DECISION TABLE                               47

TABLES
     Table 1: Examination Results and Regulatory Actions for PTL             6
     Table 2: Compensation Paid to PTL's Executive Officers                 16
     Table 3: Capital Injections From PAMM to PTL                           18
     Table 4: PTL's Capital Ratios 1996 - 1999                              24
     Table 5: Quarterly Values for the IORRs, Total Assets, and
       Equity Capital                                                       26
     Table 6: E&Y Valuation Reports                                         31
     Table 7: DOS Initiatives                                               35
     Table 8: Calculation of Excess Residual Interest                       43
FIGURES
     Figure 1: The Securitization Process                                   11
     Figure 2: Comparison of PTL's and Its Peer Group's Overhead Expenses
        Expressed as a Percentage of Average Assets                         14
     Figure 3: Gain on Sale of Loans                                        22
     Figure 4: Total Equity Capital                                         23
     Figure 5: Net Income                                                   27

                                           ii
Federal Deposit Insurance Corporation                                                                          Office of Audits
Washington, D.C. 20434                                                                             Office of Inspector General


   DATE:                                  June 7, 2000

   MEMORANDUM TO:                         James L. Sexton, Director
                                          Division of Supervision


   FROM:                                  David H. Loewenstein
                                          Assistant Inspector General

   SUBJECT:                               Material Loss Review – The Failure of Pacific Thrift and
                                          Loan Company, Woodland Hills, California
                                          (Audit Report No. 00-022)

   In accordance with section 38(k) of the Federal Deposit Insurance (FDI) Act, the Office
   of Inspector General (OIG) conducted a material loss review of the failure of Pacific
   Thrift and Loan Company (PTL), Woodland Hills, California, to determine the causes of
   the thrift’s failure and to evaluate the FDIC’s supervision of the thrift. PTL was closed
   on November 19, 1999 with total assets of $117.6 million. At the time of closure, the
   Federal Deposit Insurance Corporation (FDIC) estimated that the Bank Insurance Fund
   (BIF) would incur a loss of $49.9 million. The estimated loss was raised to $52 million
   as of December 31, 1999. The loss was exacerbated by PTL's sizeable investment in
   interest-only residual receivables (IORR) generated through their securitization program.
   The Division of Supervision's (DOS) regulatory efforts acknowledged the risks
   associated with the IORRs and attempted to quantify any potential losses in the IORRs.


   OVERVIEW

   PTL was an industrial loan company whose principal business activity was the
   securitization of subprime loans, which were either generated through one of its many
   loan production offices or purchased through other financial intermediaries or brokers.
   The State of California Department of Financial Institutions (State) closed PTL on
   November 19, 1999 after PTL was unable to meet the State's demand for a capital
   injection of $1.9 million. The capital deficiency stemmed from the thrift's earlier
   implementation of Statement of Financial Accounting Standards (FAS) 125, effective
   January 1, 1997, which permitted PTL to record the IORRs, a by-product of the
   securitization of subprime loans, as assets on their balance sheet. Prior to 1997, PTL's
   general practice was to sell loans for cash. Between the March 31, 1997 and the
   September 30, 1999 Call Reports,1 PTL's IORRs increased from $10.8 million to $48.8

   1
       See glossary for further explanation of this and other terms used throughout this report.
million, an increase of 352%. PTL's overly optimistic valuation assumptions resulted in
inflated values that were unrealizable.

Because of the unique characteristics of industrial loan companies, such as not accepting
demand deposits, their parent or holding companies are not under the jurisdiction of the
Bank Holding Company Act and are therefore unregulated by federal regulatory
authorities. Unrestrained borrowing through lines of credit and cash advances on the
IORRs by PacificAmerica Money Center, Inc. (PAMM), the parent holding company,
allowed PTL to generate loans without reliable and stable funding sources. The
structuring of the loan sales and the receipt of the cash advances also resulted in PTL's
incurring numerous apparent violations of law associated with transactions between
affiliated entities.

PTL’s management established extremely optimistic assumptions for the projection and
recording of anticipated future income associated with their IORRs. As a result, capital
increased dramatically during 1997 from recording the increasing gains achieved on the
sale of the securitized loans. However, the growth in the IORRs, coupled with the lack of
sustained cash flow from the IORRs, placed undue stress on PTL’s capital base.

The FDIC examiners were alert to the risks during their first exposure to PTL’s IORRs
during their March 1997 examination. These complex derivative instruments were new
to the examiners, a situation that eventually prompted assistance from FDIC Capital
Markets Specialists in Washington. The initial problem faced by the regulators was
trying to establish a fair market value for the IORRs. Because the retained interests were
new in the financial markets, there was limited public information available. FAS 125
indicates that the best evidence of fair value is a quoted market price in an active market.
In instances where a quoted market price is unavailable, the accounting rules allow for a
fair value to be estimated.

To arrive at such an estimate, the FDIC required PTL to obtain a third-party independent
valuation of PTL’s IORRs. In early 1998, PTL contracted with Ernst & Young (E&Y)
to conduct an independent valuation of the IORRs. The regulators believed that E&Y
was conducting a fair market analysis of the IORRs. During the April 1998 examination,
DOS attempted to get E&Y’s valuation model so that they could determine how the
process worked. In addition, DOS also requested access to Ernst and Young’s
workpapers so they could review exactly how E&Y derived its conclusions. E&Y
refused to allow DOS access to its model and workpapers, stating that the model was
proprietary and that its workpapers were not available for third-party review. DOS
contacted the Legal Division to determine how DOS could gain access to E&Y's
workpapers. A DOS representative wrote a letter to E&Y, and at the April 1999
examination, DOS gained access to E&Y’s workpapers. E&Y later told DOS that the
work it performed was not an independent fair market analysis, but only a computation
based on agreed-upon procedures using assumptions provided by PTL's management.

The State closed PTL on November 19, 1999 after PTL was unable to meet the State's
demand to increase their capital base. As a result of the losses associated with PTL and



                                             2
the IORRs, the FDIC has estimated that the loss to the BIF will be at least $52 million as
of December 31, 1999.

Our report on PTL is structured as follows:

§   The History and Background section provides information on the principals of the
    thrift and the evolving corporate structure. It also recaps the examination history of
    the thrift from 1989 through 1999 with emphasis on the proposed and actual
    enforcement actions related to those examinations.

§   A separate section discusses our Objectives, Scope, and Methodology in conducting
    this review.

§   The Results of Audit section summarizes our findings and recommendations.

§   Our main discussion of PTL is presented in two major sections. In the first section,
    we discuss the causes of PTL’s failure and show how the IORRs were structured
    and how they contributed to the bank’s eventual ruin. The second major section of
    our report addresses the FDIC’s supervision of PTL. This part of our report focuses
    on the regulatory efforts demonstrated by the FDIC examiners as they tried to assess
    the risk and valuation of a new and complex securitized asset, including the FDIC's
    implementation of Prompt Corrective Action (PCA). It also shows how the Division
    of Supervision (DOS) has taken measures based upon PTL and other recent bank
    failures to address the risks involved with subprime lending and securitization
    activities.

§   Our report contains five recommendations designed to provide support for current
    FDIC initiatives and to provide FDIC examiners guidance for improving the
    examination process.

§   Due to the complexity of some of the issues presented, we have included a glossary
    of terms at the conclusion of the report.

HISTORY AND BACKGROUND

Tracing PTL's Heritage

Pacific Thrift and Loan Company began its operations as an industrial loan company
(ILC) on July 22, 1988 in Woodland Hills, California. ILCs are the evolutionary
counterparts of the Morris Plan Banks, which were started in 1900. Morris Plan Banks
were essentially finance companies that directed their lending to individuals who owned
no property. Their practice was to loan money to borrowers based on endorsements from
two credit-worthy individuals who knew the borrower. Morris Plan Banks were an
attempt to provide individuals with an opportunity to borrow funds without having to
resort to loan sharks. Such institutions issued thrift investment certificates, similar to a
bank's certificate of deposit. ILCs operate today in a manner similar to that of Morris



                                              3
Plan Banks at the turn of the century. ILCs also issue thrift certificates; however, they
have expanded their practices and are engaged primarily in lending to individuals and
commercial businesses. ILCs also engage in collateral-based lending, which is generally
related to loans secured by real estate and is another departure from the philosophy of the
Morris Plan Banks. PTL was very niche-oriented and diverted its lending practices
from conventional portfolio loans to loans made to subprime borrowers for securitization
purposes.

In California, ILCs were previously insured by a state insurance system. However, the
state fund went bankrupt after a significant ILC failure, and in the 1980s there were
several uninsured ILCs operating in California. The State of California required the
remaining ILCs to either obtain Federal Deposit Insurance Corporation (FDIC) insurance
or cease operations. PTL received insurance from the FDIC on December 19, 1988.

PTL's Management Team

The founder/chairman of PTL was the thrift's leading policymaker. From its inception in
1988 until 1993, PTL operated primarily as a residential lender and limited its operations
to the Southern California area. The California real estate recession in the early 1990s
led to increased loan losses at PTL. To reduce the economic risks of concentration in a
single geographic region, PTL diversified its lending operations to target regions
throughout the country.

A new management team joined PTL in 1993, consisting of a President, Chief Financial
Officer, and Executive Vice President. Each of these three executive officers had come
from Topa Thrift and Loan (Topa), Los Angeles, California. On November 12, 1992,
Topa received an FDIC Cease and Desist (C&D) Order relating to deficient management
practices, significant asset quality weaknesses, unprofitable operations and other issues.
Topa was subsequently sold and its charter was surrendered without a monetary loss to
the FDIC.

Upon joining PTL, this management team immediately implemented an expansionary
program of originating and selling subprime mortgage loans. This program provided
monetary gains that helped resolve PTL's previous capital problems. However,
management’s expansionary activities without regard to adequate policies, programs, and
controls resulted in serious shortcomings. This became apparent with PTL's reaction to
the Financial Accounting Standards Board's issuance of FAS 125. Previously, PTL sold
whole loans to purchasers at a premium and received all of the proceeds in cash at the
time of the sale. After the issuance of FAS 125, although PTL continued to sell the loans
at a premium, only the par value of the loans was received in cash. The premium on the
loan sales was received in the form of a pro rata share of an IORR. The receipt,
valuation, and recordation of the IORRs ultimately caused the collapse and downfall of
the institution.




                                             4
PTL's Holding Company

At PTL's inception, it was a wholly owned subsidiary of Presidential Mortgage Company
(Presidential), which was part of a two-tiered holding company relationship. Presidential
was a California limited partnership organized on June 15, 1981 and was wholly owned
by Presidential Management, a California partnership. In 1994, PacificAmerica
Mortgage Corporation (PMC) was formed and subsequently acquired by Presidential to
serve as its ultimate replacement. At this time, Presidential was heavily burdened with
debt, so Presidential began the process of restructuring and capital restoration through an
initial public offering. It was anticipated that PTL could benefit from the offering by
receiving capital contributions from the parent. This process was consummated in June
1996 when Presidential became PacificAmerica Money Center (PAMM), Inc., a
Delaware Corporation. PMC was absorbed into the new corporate structure with PTL
remaining as PAMM's principal subsidiary.

PTL's Struggle for Success

PTL was first designated as a problem institution by the bank regulatory agencies in 1991
and was subsequently subjected to numerous formal and informal supervisory actions.
Table 1 details a historical perspective of regulatory actions pursued against PTL from
1989 until its closing in 1999.




                                             5
      Table 1: Examination Results and Regulatory Actions for PTL

             CAMEL(S)      Composite          Supervisory Action(s)                       Resulting Action
              Ratings       Ratings              Recommended
                                          By FDIC and State Examiners
 9/30/89      2-2-2-2-2        2        None                                  No action taken.
  FDIC
 10/29/90     4-3-3-3-3        3        None                                  No action taken.
  State
 9/23/91      2-2-2-2-3        2        None                                  No action taken.
  FDIC
 10/31/91     4-4-4-4-4        4        None                                  No action taken.
  State
 6/15/92      3-4-4-4-4        4        Recommended an MOU.                   RO favored a C&D; after a capital
  FDIC                                                                        injection, an MOU was issued.
 11/18/92     3-3-3-4-4        3        None                                  Continuation of MOU.
  State
  6/7/93      3-3-3-4-4        3        Recommended termination of MOU        MOU terminated and bullet C & D issued.
  FDIC                                  and issuance of bullet C & D.
 1/10/94      3-4-4-4-3        4        Letter sent regarding issuance of     Continuation of C & D; the Call Report
  State                                 CMPs for filing late Call Report.     was filed late due to an earthquake - no
                                                                              action on CMPs.
  9/26/94     5-4-4-5-3        5        Recommended additional bullet C &     C & D that was issued in 1993 continued;
   FDIC                                 D.                                    additional bullet C & D issued. PCA
                                                                              Directive issued.
  1/27/95     5-4-4-5-3        5        CMPs recommended for late filing of   Thrift stipulated to pay CMPs. FDIC
   State                                Call Reports. FDIC recommends         combines two C & D’s into one Order.
                                        combining two C & D’s into one        Board stipulated to new C & D. State
                                        Order. State issues Order to Cure     issues a Notice of Compliance, Net Worth
                                        Deficiency of Net Worth.              Deficiency.
 10/31/95     3-3-3-3-2        3        None                                  Continuation of C & D.
  State
 11/27/95     3-3-3-3-3        3        None                                  Continuation of C & D.
  FDIC
  3/3/97     2-3-2-2-2-3       2        Recommended terminating C & D         C & D terminated and replaced with an
  State                                 replacing with an MOU.                MOU.
  3/3/97     3-4-4-3-2-3       4        None                                  Continuation of MOU.
  FDIC
 4/27/98     4-4-4-4-4-4       4        Recommended a more comprehensive      A more comprehensive MOU issued;
  Joint                                 MOU.                                  Order issued by the State.
 12/24/98                                                                     C&D issued by FDIC became effective.
 4/26/99     5-5-5-5-5-5       5        State issued a demand for capital.    Order and a demand for capital issued by
  FDIC                                                                        the State. FDIC issued a PCA Directive, C
                                                                              & D, and a second C & D for Y2K
                                                                              concerns.
Sources: DOS and State Banking Department Examination Reports, Bank Information Tracking System, DOS Correspondence

      On November 19, 1999, the California Department of Financial Institutions closed PTL and
      appointed the FDIC as receiver. One hour prior to the closing, PAMM filed for bankruptcy.
      OBJECTIVES, SCOPE, AND METHODOLOGY
      We performed this audit in accordance with section 38(k) of the Federal Deposit Insurance (FDI)
      Act, which provides that if a deposit insurance fund incurs a material loss with respect to an
      insured depository institution on or after July 1, 1993, the Inspector General of the appropriate
      federal banking agency shall prepare a report to that agency reviewing the agency's supervision
      of the institution. A loss is considered material if it is or becomes apparent that the loss will
                                                            6
exceed $25 million and 2 percent of the institution's total assets at the time the
Corporation was appointed receiver. The FDI Act requires that the OIG report be
completed within 6 months after "it becomes apparent" that a material loss has been
incurred. However, the amount of the loss estimate can vary based on changing
economic conditions and the FDIC's approach to resolving and liquidating the institution.
The actual loss to the BIF will not be known until all receivership assets are liquidated.
As a result, in determining whether to initiate a material loss review, the OIG generally
relies on the loss estimates recorded by the FDIC's Division of Finance (DOF). PTL was
closed on November 19, 1999 with total assets of $117.6 million; DOF provided its initial
estimated loss of $49.9 million to the OIG on December 7, 1999, and we immediately
initiated our material loss review.

The scope of this audit included an analysis of PTL's operations from December 1988
when the FDIC insured the thrift, until its failure on November 19, 1999. Our review
also entailed an evaluation of the regulatory supervision of the bank over the same
period. Our specific objectives were to: (1) determine the cause(s) of PTL's failure and
resulting material loss to the BIF and (2) assess the FDIC's supervision of the thrift,
including implementation of the Prompt Corrective Action requirements of section 38 of
the FDI Act.

To accomplish our audit objectives, we performed the following procedures and
techniques:

       q   Analyzed examination and visitation reports prepared by the FDIC and the
           State of California regulators from 1989 until 1999;
       q   Reviewed bank data and correspondence maintained at the Division of
           Supervision San Francisco Regional Office;
       q   Reviewed reports prepared by the Division of Resolutions and Receiverships
           (DRR) and DOS relating to the bank's closure;
       q   Interviewed DOS management in Washington, D.C., and San Francisco,
           California;
       q   Interviewed Legal Division officials at the San Francisco Regional Office;
       q   Interviewed DRR officials in Washington, D.C., and at the Dallas Regional
           Office;
       q   Interviewed FDIC examiners from the Los Angeles West and East field
           offices and the Atlanta Regional Office who participated in examinations or
           reviews of examinations of PTL;
       q   Interviewed Capital Markets Specialists in Washington, D.C.;
       q   Interviewed accounting specialists in Washington, D.C., and from the San
           Francisco Regional Office;
       q   Met with the officials from the California Department of Financial Institutions
           to discuss the historical perspective of the institution, its examinations, and
           other activities regarding the State's supervision of the bank;
       q   Researched and reviewed FAS 125;
       q   Researched and reviewed information on unregulated holding companies and
           industrial loan companies;



                                            7
       q   Researched interest-only residual receivables;
       q   Reviewed bank records (board minutes, prospectuses, policies and procedures,
           responses to enforcement actions) obtained from DRR in Dallas, Texas, for
           information that would provide insight into the thrift's failure;
       q   Reviewed bank records obtained from DRR in Washington, D.C., relating to
           the asset securitizations and interest-only residual receivables;
       q   Reviewed regional office records obtained from DOS and DRR relating to the
           supervision and closing of PTL;
       q   Reviewed PTL's Uniform Bank Performance Reports from 1989 until 1999;
       q   Reviewed PTL's Call Reports from 1989 through 1999; and
       q   Reviewed pertinent DOS policies and procedures.

We performed the audit fieldwork at the DOS and Legal Division offices in San
Francisco, California; the DOS field office in Los Angeles, California; the DRR office in
Dallas, Texas; the State of California Department of Financial Institutions office in Los
Angeles, California, and DOS and DRR offices in Washington, D.C.

We conducted the audit in accordance with generally accepted government auditing
standards. Our opinions and conclusions are based on records obtained by FDIC at PTL's
failure. We do note, however, that PAMM, PTL's holding company, filed for bankruptcy
an hour before the institution was closed. Because of the bankruptcy proceedings,
PAMM's records were removed from the premises, and DRR was unable to review the
documents to determine if any of PTL's records were included. Certain records that we
would expect to see in PTL's files such as the final agreement between PTL and Ernst
and Young to obtain the asset valuation, Call Report workpapers, and general
correspondence files were not included in the DRR files. The absence of these files
served to limit the scope of our review. We conducted the audit fieldwork from
December 1999 through April 2000.


RESULTS OF AUDIT

PTL’s management did not operate the institution in a safe and sound manner, which led
to losses in the thrift's IORRs generated in connection with the securitization of subprime
loans. FAS 125 allowed entities to estimate the values of IORRs based on reasonable and
supportable assumptions. PTL's losses were compounded by PTL's application of FAS
125, in which management established extremely optimistic assumptions for projecting
and recording anticipated future income associated with the IORRs. The unrestrained
borrowing, through lines of credit and cash advances on the IORRs by PAMM, the parent
holding company, allowed PTL to generate loans without reliable and stable funding
sources. This was clearly demonstrated when funding sources began to collapse with the
Asian financial crisis in 1998, and PTL was unable to recover from its already strained
liquidity position to continue to compete in the securitization arena.

The FDIC Division of Supervision’s regulatory oversight of PTL was responsive to the
risks associated with the thrift's IORRs. DOS’s regulatory efforts demonstrated attempts



                                             8
to address these risks and the problems associated with the IORRs, given the power,
ability, and market information that were available to DOS at that time.

Since the failure of PTL, the FDIC's Division of Supervision has issued significant
examination guidance regarding subprime lending and asset securitization. The guidance
specifically addresses the risks posed by subprime lending and asset securitization as well
as the examination methods and regulatory treatment that examiners are to use when they
encounter financial institutions engaged in either or both types of activities. We
recommend that DOS actively pursue amending the capital standards to exclude interest-
only residuals from the calculation of Tier 1 Leverage Capital. DOS is currently working
on an interagency rulemaking that is addressing this issue. In addition, we recommend
that DOS develop an approach for limiting an institution's interest-only residuals to an
amount that will not impair the capital protection of the institution. Regarding the unique
structure of industrial loan companies, we recommend that DOS staff be reminded that
they have access to examine the records of affiliated entities under section 10(b) of the
FDI Act and that DOS examiners should routinely review institutions' material
intercompany transactions with unregulated holding companies. Lastly, due to the delays
and confusion surrounding the independent valuations performed by a public accounting
firm conducting work for PTL at the request of the FDIC, we offer recommendations to
improve this process going forward.


CAUSES OF PTL'S FAILURE AND THE RESULTING MATERIAL LOSS TO
THE BANK INSURANCE FUND

PTL's demise was caused by bank management's failure to operate the institution in a
safe and sound manner, which led to losses in the IORRs and the depletion of the
institution's capital base. FAS 125 allowed entities to estimate the values of IORRs based
on reasonable and supportable assumptions. PTL's losses were compounded by PTL's
application of FAS 125, in which management established extremely optimistic and
liberal assumptions for projecting and recording anticipated future income associated
with the IORRs. Unrestrained borrowing through lines of credit and cash advances on
the IORRs by PAMM, the parent holding company, allowed PTL to generate loans
without reliable and stable funding sources. The structuring of the loan sales and the
receipt of the cash advances also caused PTL to commit numerous apparent violations of
law associated with transactions between affiliated entities.

Soon after the inception of the IORR program in 1997, PTL's capital and asset bases
increased due to its proliferation in the securitization business. However, funding sources
began to collapse with the Asian economic crisis in 1998, and PTL was unable to recover
from its already strained liquidity position to continue to compete in the securitization
arena. The FDIC and the State, as regulators, repeatedly warned PTL's management that
PTL's policies, procedures, and modeling techniques were inadequate for valuing and
recording the anticipated future income on the IORRs. Repeated requests by regulators
for PTL to have an independent valuation conducted by an outside third party resulted in




                                             9
a series of denials and arguments from PTL instead of an accurate and usable value for
the IORRs.

Despite the liberal assumptions used by management in projecting future income,
inordinate overhead expenses were rapidly eroding PTL's earnings. As a result, in 1998
the FDIC required that PTL cease its acceptance of IORRs in its securitizing operations
and limit activities to cash-only sales for loans. Because of the diminished volume of
sales and the nominal premium received for the loans, income could not keep pace with
the overhead expenditures. Capital was depleted and PTL was unable to restore the
capital base through outside sources. The State of California Department of Financial
Institutions closed PTL on November 19, 1999.

The events and principal conditions that led to the failure of PTL and resulted in a
material loss to the BIF include management's failure to adhere to safe and sound
banking principles resulting in losses sustained in the IORRs and the depletion of the
thrift's capital. PTL's failure has resulted in estimated losses of $52 million as of
December 31, 1999 to the BIF sustained largely by the securitization operations and the
IORRs.

A General Overview of the Loan Securitization Process

Asset securitization is the process of transforming generally illiquid assets into securities
that can be readily traded in the marketplace. Asset securitizations can be structured in a
myriad of ways since there are no set requirements for structuring asset securitizations.
Most securitized assets are mortgage-backed securities, such as first and second
mortgages on residential real estate, or asset-backed securities, such as credit cards or
automobile loans. Since PTL was involved in the loan securitization of residential
mortgage loans, we will refer to these instruments collectively as mortgage-backed
securities (MBS) for the purposes of this report. For a more comprehensive discussion of
the securitization process, refer to appendix A.


The Mechanics Behind The PTL/PAMM IORRs

PTL and PAMM forged a unique structure for their IORR. Figure 1 illustrates and
summarizes the mechanics behind how their securitizations were structured and the
method employed to allow the loans to flow from the initial origination at PTL to the sale
of securities to the ultimate investor.




                                             10
                               Figure 1: The Securitization Process

                                                 Pacific Thrift
                                                  and Loan
                                                  Company
                                                    (PTL)


                                          (1)                                   (8)


                                                PacificAmerica
                                                Money Center,
                                                 Inc. (PAMM)
                             (2)                                                      (7)



      PacificAmerica
                                                             (4)
      Securities, Inc.
           (PSI)

            (3)                     (6)


                  Merrill                            Advanta                   Aames
                  Lynch                              Mortgage                  Capital



                                          (5)                        (5)




Investors                          Investors                       Investors                 Investors




     For simplicity, the actual steps in the securitization process such as acquiring a trustee,
     servicer, guarantor, etc., have been omitted.

     Sources: OIG Analysis based on data obtained from DOS and Division of Resolutions and
     Receiverships.




                                                        11
(1) PTL originated loans with individual borrowers and purchased loans from
wholesalers for resale in the securitization market. PTL sold the loans to their parent,
PAMM, for the par, or face, value of the loans.

(2) PAMM sold some of the loans to PacificAmerica Securities, Inc. (PSI). PSI was a
special purpose entity created to facilitate the securitization process by acquiring loans
from PAMM for resale to Merrill Lynch under a "warehousing" agreement.

(3) PSI sold the loans to Merrill Lynch. Merrill Lynch packaged the loans into a
securitized MBS for sale in the secondary market to potential investors.

(4) PAMM also sold loans to other financial groups such as Advanta and Aames to
securitize into an MBS for sale in the secondary market to potential investors.

(5) These firms (Advanta and Aames) conducted and completed the securitization
activities relating to the mortgage loans. They then sold the MBS to investors in the
marketplace.

(6) Merrill Lynch issued an actual interest-only (IO) strip certificate. PAMM held the
actual certificate indicating its ownership rights in the residual interests. Even though
Merrill Lynch acquired the loans at a premium, they paid PAMM the par, or face, value
for the loans in cash. The premium was comprised of PAMM's percentage ownership in
the IO strip. Merrill Lynch distributed part of the premium as a cash advance to PAMM
on a specific percentage of the future anticipated income from the IO strip. The advance
had to be repaid prior to any additional cash flow distributions of the IO strip to PAMM.

(7) PAMM had master agreements with Advanta and Aames pertaining to the ownership
percentages and the division of the residual interests in the securitizations that were sold
to investors. The Advanta and Aames securitizations did not have IO strips. Even though
Advanta and Aames acquired the loans at a premium, they paid PAMM the par, or face,
value for the loans in cash. The premium was comprised of the percentage ownership in
the IORRs. The premium amount due to PAMM was in the form of an IORR. Advanta
and Aames distributed part of the premium as a cash advance to PAMM on a specific
amount of the future anticipated income from the IORRs. The advance had to be repaid
prior to any additional cash flow distributions of the IORRs.

(8) PAMM and PTL had intercompany agreements that specified their pro rata shares of
the IORR from each of the securitizations. PAMM downstreamed the funds from the
cash advances from Advanta, Aames, and Merrill Lynch to PTL. This provided PTL
with available liquidity in order to fund additional loans and continue the securitization
process.

Concentration in Interest-Only Residual Receivables Led to PTL's Failure

The implementation of FAS 125 in 1997 permitted PTL to record IORRs, a by-product of
the securitization of subprime mortgage loans, as assets on their balance sheet. It also


                                             12
allowed the recording of the discounted projected future income associated with the
IORRs. As a result, assets increased with a growth rate of 72 percent in 1997. The
growth in the IORRs, coupled with the lack of sustained cash flow from the IORRs,
placed undue stress on PTL's capital base. Management's failure to curb excessive
overhead expenses and the inability to generate core profitability to augment capital
finally led to the closure of PTL.

Changes in Portfolio Composition Result in Asset Growth

The overall business strategy changed course several times during PTL's history. The
changes in the business plan first appeared to be following an orderly sequence of events
in response to managerial initiatives to increase revenues and find a market niche in
which the thrift could excel. At inception, PTL was primarily engaged in residential
lending along with some real estate-secured commercial loans. Asset growth was rapidly
expanding in response to its entrance in a new business environment. Asset growth rates
were correspondingly high from 1989 until 1991 with ratios of 248 percent, 75 percent,
and 121 percent respectively.

In late 1991, PTL became involved in Federal Home Administration Title 1 home
improvement loans, which were extended to pay for construction costs of home
improvements or for debt consolidation. This program was only offered in California,
and the loans were secured by residential properties. The purpose was to originate the
loans, sell the guaranteed portions, and retain the servicing rights to the sold portions. In
1993, PTL began to originate loans for sale as indicated by the master sale agreement
with Aames. In 1994, PTL entered the securitization market by originating loans for sale
to third-party securitizing entities. By 1995, PTL's revenue was dependent upon the sale
of loans with more than 50 percent of the income being derived from this activity of
selling loans to third-party securitizing entities. The asset growth rates tapered during the
period between 1992 and 1996, with a low of negative 10 percent and a high of 33
percent.

In 1997, PTL began the sale of loans for securitization with the new feature of retaining
IORRs. PTL's implementation of FAS 125 affected the intensity of the asset growth as
well as altering the composition of the asset and income structures. The rapid expansion
into the sale of loans for securitization with the retention of IORRs resulted in an asset
growth rate of 71 percent in 1997. Capital increased 115 percent between December 31,
1996 and December 31, 1997, because of the income generated by the IORRs as a result
of recording the increasing gains achieved on the sale of loans. This expansionary period
ended abruptly in 1998 with the Asian economic crisis and the substantial decline in the
demand for subprime loans in the secondary markets. Although the business strategy
changed once more with the discontinuation of the wholesale loan division, PTL was
unable to restore its capital to a level that would allow it to continue as a going concern.
As of September 30, 1999, the IORRs represented approximately one-third of PTL's total
assets.




                                             13
Excessive Overhead Expenses Eliminate Earnings

PTL experienced only 4 years of positive earnings from December 1989 until September
1999. In the first 5 years of operations, overhead expenses in the form of salaries and
reimbursements to its parent company outpaced PTL's ability to generate sufficient
income sources to ensure profitability during 4 of those 5 years. The regulators
constantly criticized PTL for the excessive payments made to the holding company.
Also, several violations of the Federal Reserve Act's Sections 23A and 23B were cited in
several Reports of Examination in connection with these payments. The payments were
for services provided to PTL by PAMM. Because PTL and PAMM shared the same
office space and essentially the same pool of employees, the overhead expenses were pro
rated on the basis of loan volume generated by each entity, and PTL and PAMM had a
master agreement governing the distribution of expenses and the reimbursements of fees.
However, the regulators felt that PTL was absorbing a disproportionate share of the
expenses and that in some cases, the expenses may have been duplicative. The excessive
overhead expenses were a constant source of criticism by the regulators. PTL's overhead
expenses were also disproportionate when compared to those of its peer group, which
consists of similarly sized and geographically situated financial institutions. Figure 2
illustrates the disparity between PTL's overhead costs and those of its peer group.


Figure 2: Comparison of PTL's and Its Peer Group's Overhead Expenses Expressed
                         as a Percent of Average Assets


         45%

         40%

         35%

         30%
                                                                                    Peer Group
         25%
                                                                                    PTL
         20%

         15%

         10%

          5%

         0.00%
                 12/89 12/90 12/91 12/92 12/93 12/94 12/95 12/96 12/97 12/98 9/99


         Source: Uniform Bank Performance Report




                                                   14
With PTL's expansion into loan sales for securitization, its salary expenses continued to
escalate. PTL began expanding its operations into different states by opening loan
production offices (LPOs). These sites were staffed with individuals who solicited loans
for PTL. At one point, PTL was operating from 61 different locations throughout the
United States, several of which had not received approval from the State of California
Department of Financial Institutions, as required by law.

In addition to the expenses associated with the LPOs, PAMM had employment
agreements with several of the executive officers of the institution. Compensation
included a specified salary and a provision for bonuses. The bonuses were tied to
PAMM's consolidated pre-tax profits or the return-on-equity ratios. Since PTL was
PAMM's principal subsidiary, the more profitable PTL was in any given year, the more
the executive officers were entitled to receive in bonuses. This provision prompted PTL's
management to increase the volume of loans that were originated and subsequently sold
in the secondary market. It also provided incentives for PTL's management to use liberal
assumptions in valuing the IORRs, thereby including higher dollar values as income.
Detailed below in table 2 is a compilation of the salaries received by the executive
officers of PTL from 1994 through 1999.




                                            15
Table 2: Compensation Paid to PTL's Executive Officers
      Title          Year       Salary ($)            Bonus ($)             Total ($)

Chairman of         1999                     *                      *                   *
the                 1998                     *                      *                   *
Board/Former        1997               235,000              1,633,728           1,868,728
                    1996               450,704                222,750             673,454
CEO
                    1995               400,466                      -             400,466
                    1994               214,200                      -             214,200

                    1999                    **                     **                  **
Former              1998               216,000                      -             216,000
President/COO       1997               235,000              1,478,050           1,713,050
                    1996               247,583                354,750             602,333
                    1995               214,273                      -             214,273
                    1994               161,600                      -             161,600

                    1999                     -                    -                     -
Executive           1998               153,600            # 477,756               631,356
Vice-President      1997               163,200              637,008               800,208
Lending             1996               184,600              207,112               391,712
                    1995               159,600                    -               159,600
                    1994               109,600                    -               109,600

                    1999                    ##                     ##                  ##
CFO                 1998                84,389                      -              84,389
                    1997               201,798                      -             201,798
                    1996               163,577                 51,667             215,244
                    1995               144,400                      -             144,400
                    1994               125,967                      -             125,967
Source: DOS and DRR

* The Chairman remained active with PTL as Chairman; however, he did not receive any
compensation in 1998 and 1999. He relinquished his position as CEO in April 1999.
** The President terminated his employment effective 1/8/99.
# The bonus was paid prior to the issuance of the MOU. The EVP was not employed by PTL
during the 4/99 examination. The date of his departure is not known.
## The CFO resigned 6/27/99.

Even though PAMM paid the salaries and bonuses for the Chairman of the Board and the
former President/COO, PTL was its principal source of revenue. In addition, PTL
upstreamed dividends to PAMM in 1996 and 1997 totaling $1.1 million and $3.5 million,
respectively. The compensation expense, coupled with the other salary expenses, the
premises expenses, and other overhead costs, rendered PTL unable to generate sufficient
profits to cover these expenses and maintain the capital base at an adequate level.



                                            16
The Asian Economic Crisis Further Exacerbates PTL's Earnings and Threatens PTL's
Tenuous Liquidity Position

In the fall of 1998, a series of events transpired creating a domino-like effect that
ultimately affected PTL's subprime loan market and the value of the IORRs. The events
began with the Asian economic crisis and the substantial losses incurred by several large
hedge funds. This led to a general stock market decline, which resulted in an increased
demand for U.S. Treasury securities. Since mortgage rates are based on comparably
mature U.S. Treasury securities, the yields on mortgages plummeted to new lows not
seen in decades. This, in turn, caused an increase in mortgage prepayments. As a result,
Wall Street investment banks, one of the primary sources of funding to subprime lenders,
made margin calls on loans to subprime lenders and reduced the availability for
warehouse loan funding. This caused a number of mortgage-backed securitizing firms
and subprime lenders to experience severe liquidity shortages due to their reduced ability
to obtain financing on loans and IORRs.

To combat the liquidity shortfall, many subprime lenders announced that they would
begin selling loans on a cash basis, which created a glut of mortgage loans being sold for
cash in the marketplace. These events reduced the demand to purchase loans for
securitization and created an oversupply of loans available for sale in the secondary
market. These market forces had an impact on the secondary market for IORRs causing
a decline in their value.

PTL's major loan purchasers were unwilling to buy the loans on a cash-only basis, which
resulted in PTL's inability to sell loans for a profit. PAMM's warehouse line of credit
was significantly reduced, which resulted in PAMM's inability to purchase additional
loans from PTL. Despite these adverse conditions, PTL continued to commit to fund
loans. The lack of available sources of funding and the lack of cash flows from the
IORRs constricted PTL's liquidity even further.

PAMM was also experiencing liquidity problems. PAMM defaulted on the advances
from Merrill Lynch in connection with three securitizations. In October 1998, Merrill
Lynch announced a margin call on the collateral due to the decline in value of the
securitizations and the IORRs. PAMM borrowed additional funds from another entity to
remedy the defaulted payments. Because of the downturn in the securitization market
and PAMM's strained cash position, PAMM was forced to get an extension on the
borrowing. On December 14, 1998, the FDIC issued a Cease and Desist Order (C&D)
against PTL. One of the provisions of the C&D required PTL to cease generating
IORRs. PTL sold two additional packages of loans in 1998 before the effective date of
the C&D. Both deals included the retention of IORRs.

The Final Decline of Capital Signals the Demise of PTL

Since 1991, PTL had been designated as a problem institution. One of the conditions
that earmarked PTL as a regulatory concern was its tenuous capital position. PAMM had



                                            17
injected capital into the institution for 7 of PTL's almost 11 years as a financial
institution. As indicated by table 3, several injections were quite sizeable.

Table 3: Capital Injections From PAMM to PTL
($000's omitted)
Year        1990 1991           1992       1993       1994 1995           1997
Amount       $200     $630     $2,940     $2,816     $1,294     $424     $1,800
Source: Call Reports submitted to the FDIC by PTL.

During the early 1990s, the capital injections from PAMM precluded an excessive
decline of capital; however, the ongoing ability of PAMM to continue injecting funds
was not insured or guaranteed. PTL's capital problems were the product of its asset
expansion and weakened earnings. PTL's continued growth by venturing into new
product lines and geographically diverse areas was never restrained by management.
Earnings were weakened through the excessive payments to PAMM for the continued
exorbitant overhead costs, including the operating and the salary expenses.

In 1997, when PTL became ensconced in the securitization market, PTL's capital position
began to deteriorate. Because the income on the IORRs consisted of projections of future
income rather than actual cash receipts, PTL's capital base was augmented by intangible
estimates of income rather than by tangible cash resources. Also, at the April 27, 1998
joint examination, examiners required the reversal of an accounting entry that did not
comply with the Federal Financial Institutions Examination Council's Instructions for the
Preparation of Statements of Condition and Income. Specifically, PAMM assumed
PTL's deferred tax liability, totaling $6.4 million, and considered the amount a capital
injection. Examiners required an adjustment or reversal to capital for the following
reasons:

       •   PAMM's assumption of the liability did not relieve PTL of the tax liability in
           the views of the federal and state taxing authorities,
       •   The transaction did not have economic substance since no cash changed
           hands,
       •   Call Report instructions required PTL to report its taxes on a single entity
           basis, and
       •   The MOU did not recognize the conversion of a deferred tax liability as an
           acceptable source of capital.

Because of the reversal of the accounting adjustment, PTL was considered
"Undercapitalized" for purposes of Prompt Corrective Action in August of 1998.

PTL submitted several capital restoration plans before the FDIC would approve an
acceptable one. Components of the plan included discontinuing the wholesale loan
division, which was the department that originated approximately 75 percent of PTL's
loans for securitization purposes; reducing expenses; restructuring PAMM's debt to
enable PAMM to divert a portion of the cash flow from its IORRs to PTL; and increasing
capital through a public or private offering of debt or equity securities. PTL discontinued


                                              18
the wholesale division; however, it was unable to generate sufficient income through its
retail loan division to meet the overhead expenses. The attempt to raise capital failed and
PTL was unable to restore the capital to an acceptable level. At the conclusion of the
April 26, 1999 FDIC examination, PTL's Tier 1 Leverage Capital ratio was 1.54 percent
with a Total Risk-Based Capital ratio of 1.01 percent. The State issued a demand for
capital of approximately $1.9 million based on PTL's August 31, 1999 financial
statements. PTL was unable to cure the deficiency, and the State closed the institution on
November 19, 1999. One hour prior to the closure of the institution, PAMM declared
bankruptcy.


ASSESSMENT OF DOS'S SUPERVISION OF PTL

PTL's designation as a problem institution did not begin with the subprime securitization
process. When PTL was established, its business focus centered in residential lending.
Over the years, various strategies were integrated into PTL's business plans, and PTL
changed and expanded into other lending avenues in an attempt to achieve profitability.
However, PTL did not become profitable, and problems emerged that required close
attention by regulatory authorities. As illustrated by table 1, PTL was subject to
regulatory actions beginning in 1992. The FDIC has been instrumental in recommending
and taking supervisory actions in an effort to stem the various problems encountered by
PTL.

We concluded that DOS was alert to the risks associated with PTL's IORRs. DOS's
regulatory efforts demonstrated attempts to address these risks and the problems
associated with the IORRs given the power, ability, and market information that were
available to DOS at that time. In 1997, the IORRs were new to the market. There were
no sources of readily available market information such as appropriate discount rates,
historical default rates, or historical prepayment speeds. DOS examiners defined the
risks; however, they were unable to locate accurate comparable data for these instruments
in the public sector. Even though DOS adversely classified the IORRs beginning in
1997, they did not require a write-off of the IORRs until 1999 when historical data
became available for comparative purposes.

On January 1, 1997, financial institutions implemented FAS 125, which permitted them
to record the IORRs as assets on the institutions' books. FAS 125 also permitted the
recording of the fair value of the anticipated future income to be derived from the IORRs
as capital. This practice resulted in the rapid growth of Tier 1 Capital and a
concentration in IORRs on PTL's books. Because of the IORRs' recent introduction into
the financial markets, information on which to base a conclusive valuation was severely
limited. DOS was thwarted in its efforts to ascertain a reliable valuation and supporting
documentation from PTL's external CPA firm, which was assessing a value for the
IORRs. Since PTL was an industrial loan company and did not meet the definition of a
bank under the Bank Holding Company Act, PAMM was not considered a bank holding
company. Therefore, PAMM was not regulated by any federal agency. The unregulated
aspect of PTL's holding company permitted PAMM to continue borrowing funds in the



                                            19
forms of lines of credit and cash advances on the IORRs to enable PTL to continue
extending loans for securitization purposes. The risky venture into asset securitization
and the debt leveraging from the parent assisted in further eroding PTL's capital base
from which the institution was unable to recover.

DOS conducted timely safety and soundness examinations and visitations both
independently and concurrently with the State banking authority. DOS appropriately
applied the Prompt Corrective Action (PCA) provisions. Following the failure of PTL
and in conjunction with the other regulatory authorities, DOS implemented examination
guidance pertaining to IORRs and is in the process of recommending rulemaking
amendments to the capital requirements outlined in Part 325 of the FDIC Rules and
Regulations. The recommendations in this section of the report address these issues as
well as methods to improve the examination process of industrial loan companies.

The Quality of PTL's Capital Base Was Negatively Impacted by the Implementation
of FAS 125

The implementation of FAS 125 permitted entities that owned IORRs to record the
IORRs as assets and the present value of the future anticipated, yet unrealized, income as
part of their capital. Incorporating such income projections can result in an inflated
capital base. The failure to realize these income projections can also have a devastating
impact on an entity's capital position.

FAS 125 went into effect on January 1, 1997. FAS 125 established certain criteria
regarding the control, accounting, and valuation of the transfer of financial assets. The
cash flows associated with the retained interests in securitization activities were
reclassified into servicing assets and interest only strips, securities, loans, other
receivables, or retained interests in securitizations that could be contractually prepaid or
settled in a manner such that the holder would not recover substantially all of its recorded
investment. The retained interests represent the right to cash flows and other assets not
used to extinguish bondholder obligations and pay credit losses, servicing fees, and other
trust-related fees. FAS 125 specified that the retained interests should be reflected on the
balance sheet as assets, and that the expected future cash flows should be included in
income, which would be closed to the capital account at the end of the year. FAS 125
indicated that the best evidence of fair value is a quoted market price in an active market.
In instances where a quoted market price is unavailable, the accounting rules allow for a
fair value to be estimated. The estimate should be based on the best information
available, and it must be supported by reasonable and current assumptions.

Because the retained interests were new in the financial markets, there was limited public
information about them available. Information on default rates, discount rates, and
prepayment rates of securitizations of subprime loans was not readily available for
comparative purposes. Unexpected market events can dramatically affect the discount
rates or the default rates, thereby affecting the value of the asset and impairing the
collectability of the future income stream. The use of liberal and unsupported
assumptions can result in material inaccuracies in financial statements and require



                                             20
material write-downs of the retained interests. If the retained interests represent an
excessive concentration of the institution's capital, material write-downs of the IORR
asset can cause the demise of an institution.

PTL initially began selling subprime loans on a cash basis during the early 1990s. The
only master agreement for the sale of loans that could be located for that time period was
between PTL and Aames Capital (Aames), indicating that Aames was one of their
primary purchasers during this period. Aames combined PTL's loans with loans
purchased from other financial intermediaries and securitized them for sale to investors.

With the implementation of FAS 125 in 1997, PTL ceased selling subprime loans strictly
for cash. PTL and PAMM, its holding company, developed an arrangement whereby
PTL sold its loans to PAMM. PAMM, in turn, sold these loans to various securitizing
entities including Aames, Advanta Mortgage (Advanta), and Merrill Lynch for a
premium. Each sale to the three securitizing entities was governed by a master sales
agreement. Although each agreement varied, each had a common thread. At the time of
the sale, each entity would remit the equivalent of the principal value of the loans in cash.
The IORRs represented the premium on the sale. Because of the immediate need for cash
resources to continue the lending process, PAMM received cash advances on a portion of
the IORRs. This cash represented part of the premium on the sale. The securitizing
entities would take the cash flows from the IORRs to repay the cash advances before
PAMM or PTL received any of its remaining shares of the IORRs.

PTL and PAMM had an agreement indicating each entity's pro rata share in its portion of
the IORRs. PTL and PAMM recorded the values of the IORRs in accordance with FAS
125 using a discounted cash flow model. This cash flow model was based on
assumptions, including discount rates, default rates, and prepayment rates, that PTL and
PAMM made concerning the portfolio of subprime loans, which were composed of the
securitized assets. The end result of the valuation process can be summarized simply as:
the more liberal the assumptions, the higher the value of the IORRs.




                                             21
                                    Figure 3: Gain on Sale of Loans
                                                                   ($000’s omitted)


         $60,000


         $50,000


         $40,000


         $30,000


         $20,000


         $10,000


              $-
                                                                            3/97
                                                                                    6/97
                                                                                           9/97


                                                                                                          3/98
                                                                                                                 6/98
                                                                                                                        9/98


                                                                                                                                       3/99
                                                                                                                                              6/99
                                                                                                                                                     9/99
                   12/90
                           12/91

                                   12/92
                                           12/93
                                                   12/94
                                                           12/95

                                                                    12/96




                                                                                                  12/97




                                                                                                                               12/98
       Source: Call Reports submitted to the FDIC by PTL. The values for the quarters for the
       years 1997, 1998, and 1999 are cumulative.

As indicated by figure 3, the gain recorded on the sale of the loans began to escalate in
1997 with the implementation of FAS 125. Although the trend tapered slightly in 1998
due to a decline in the demand for subprime loans caused in part by the Asian economic
crisis, PTL was still actively engaged in the sale of subprime loans for securitization
purposes.

Figure 4 reflects the increase in capital brought about by the increase in loan production
and the gain on sale of loans associated with the IORRs. PTL's total equity capital
increased 115 percent between December 31, 1996 and December 31, 1997. The
increase is primarily attributable to the gains on the sale of loans which more than
doubled from $24,489,000 in 1996 to $53,639,000 in 1997. Figure 4 reflects the marked
increase in the equity capital account during 1997 and 1998 over prior periods. The
principal risk associated with the income generated by the IORRs was the failure of the
anticipated future income to materialize due to changing market conditions or through the
use of flawed or liberal assumptions. One of the provisions in the FDIC's December
1998 Cease and Desist Order forced PTL to cease receiving IORRs as compensation for
the sale of loans, which would require PTL to sell loans only for cash. Figure 4 indicates
the substantial decline in equity once the income was arrested from its accelerated growth
through the use of liberal assumptions associated with the IORRs in 1999.




                                                                                   22
                        Figure 4: Total Equity Capital ($000’s omitted)

           $20,000

           $18,000
           $16,000

           $14,000
           $12,000

           $10,000

            $8,000

            $6,000

            $4,000

            $2,000Source:   Call Reports submitted to the FDIC by PTL.
               $0
                            1990       1992     1994      1996      1998
                     1989          1991     1993     1995      1997      1999


Tier 1 Leverage Capital Ratio Fails to Reflect the Risks Associated With IORRs

The Tier 1 Leverage Capital ratio is the benchmark used by regulatory agencies to begin
determining the capital adequacy of a financial institution. Part 325 of the FDIC's Rules
and Regulations details the specifics pertaining to the Tier 1 Leverage Capital ratio,
including regulatory minimums. To arrive at the Tier 1 Leverage Capital ratio, total Tier
1 Capital is divided by Average Total Assets. Any income, whether realized or not, is
included in the capital accounts and is therefore included in the calculation.

In the case of PTL, the projected future income on the IORRs, whether realizable or not,
was recorded in accordance with FAS 125 and was included in the thrift's Tier 1 Capital.
The average assets' value also increased; however, the value increased only by the
amount of the IORRs that were recorded in the "Other Assets" category of the balance
sheet. Only the numerical values of the IORRs were reflected in the ratio. The potential
default and prepayment risks, which the IORRs may or may not have had to absorb, were
not reflected in the Tier 1 Capital ratio. Therefore, the potential risks associated with
these instruments were not accurately reflected in the Tier 1 Leverage Capital ratios.

The Risk-Based Capital Ratio Reflects the Risks Associated With IORRs

The Risk-Based Capital ratio is calculated by dividing its qualifying total capital base by
its risk-weighted assets. In order to calculate the Risk-Based Capital ratio, risk-based
assets are calculated by assigning assets and off-balance sheet items to broad risk
categories. Even though PTL sold the loans to other entities, the IORRs provided a
cushion against losses. Since the excess interest would absorb losses and protect the
bond investors, the loans were considered "sold with recourse" and were used as off-


                                                23
  balance sheet items in the calculation of the Risk-Based Capital ratio. The inclusion of
  the converted loan balances caused an inordinate increase in the risk-based assets as
  opposed to the increase in capital, causing the Risk-Based Capital ratio to decline from
  the beginning of the securitization activities. Table 4 illustrates the relationship between
  the Risk-Based and the Tier 1 Leverage Capital ratios from the 1996 examination until
  the last examination of the institution.

  Table 4: PTL's Capital Ratios 1996 - 1999
Capital Ratios      12/31/96           6/30/97         9/30/97         3/31/98      3/31/99
                    State Exam         FDIC            FDIC            Joint        FDIC
                                       Exam            Visitation      Exam         Exam
Tier 1 Leverage   8.31%            16.01%         14.30%               12.64%       1.54%
Capital Ratio
Tier 1 Risk Based 10.05%           8.54%          8.01%                6.10%        0.62%
Capital Ratio
Total Risk Based 11.30%            8.96%          8.43%                6.80%        1.01%
Capital
  Source: FDIC Reports of Examination (1996 - 1999)


  As indicated by the ratios in the table, the Tier 1 and Total Risk-Based Capital ratios
  never increased from the inception of the securitization process. These ratios reflected
  the risks inherent in the IORRs. The Tier 1 Leverage Capital Ratio, however, almost
  doubled with the onset of the securitization activities during 1997 before beginning its
  decline.

  DOS Used Prompt Corrective Action Appropriately

  The Congress enacted section 38 of the Federal Deposit Insurance Act, Prompt
  Corrective Action, to ensure regulatory intervention when an insured financial
  institution's capital declines below specified minimum levels. Following the September
  26, 1994 examination, a Prompt Corrective Action letter notified PTL that it was
  critically undercapitalized pursuant to section 38 of the FDI Act. The letter noted that
  PTL was subject to the mandatory requirements of section 38 as of October 31, 1994.
  This meant PTL would have to submit a capital restoration plan; restrict asset growth,
  acquisitions, new activities, and branches; and limit the payment of dividends or other
  capital distributions, management fees, or senior executive compensation. The letter
  further stated that the FDIC would place the thrift in receivership as of March 19, 1995
  unless it was determined that an alternate course of action would better serve the
  purposes of section 38. PAMM made a capital injection and PTL restructured its
  expenses, which generated $700,000 prior to December 31, 1994. PAMM injected
  additional capital in early 1995 and the thrift was adequately capitalized by March 31,
  1995.

  From 1995 through 1997, PTL maintained its capital levels in such a way as to preclude
  notification under PCA. However, the FDIC notified PTL of its non-conformance with


                                               24
PCA capital requirements twice in 1998 and again in 1999. Proper notification
procedures were used to apprise PTL of its capital condition.

Interagency Examination Guidance and Other Regulatory Actions

Following the failure of PTL, all of the federal regulators issued a Financial Institution
Letter (FIL) entitled Interagency Guidance on Asset Securitization Activities, which was
released on December 13, 1999. The FIL outlines the risks associated with asset
securitizations, the fundamental management controls that should be operating in
institutions engaged in asset securitizations, and the examination treatment afforded to
IORRs whose valuations do not meet the regulatory guidelines. In addition, the federal
regulatory authorities have instituted a rulemaking process and drafted amendments to
the regulatory capital standards that would not permit the inclusion of IORRs based on
subprime securitizations in assets or capital unless certain specified criteria are met.

Conclusion

Even though the Risk-Based Capital ratios indicated the potential exposure in the IORRs,
the Tier 1 Leverage Capital Ratio did not reflect the speculative nature of these
investments. Examiners use the Tier 1 Leverage Capital Ratio as the starting point for
evaluating the adequacy of capital. If the ratio does not indicate the potential risks posed
by IORRs, the capital adequacy of an institution may be overrated. If examiners are to
assess the true safety and soundness of financial institutions, the earnings and capital
cannot be inflated by potentially unattainable income.

Recommendation

We recommend that the Director of the Division of Supervision:

(1) Continue to pursue amending the capital standards to exclude IORRs based on
subprime securitizations from the calculation of Tier 1 Leverage Capital.

Concentration in High-Risk IORRs Contributed to PTL's Insolvency

The implementation of FAS 125 acted as a catalyst for the growth of the IORRs, which
soon became a concentration of PTL's capital. As a result of recording the values for the
IORRs, PTL's asset and capital bases began to expand. Soon, the IORRs represented a
large portion of total assets, several times larger than PTL's capital. This undue reliance
on one asset that represented in excess of 100 percent of PTL's capital soon became a
formidable force that PTL was unable to control.

FAS 125 lists the criteria for including IORRs as assets on an institution's records. It also
specifies the criteria for projecting and including the potential future income stream as
part of an entity's capital. However, FAS 125 is silent pertaining to maximum amounts
that may be safely incorporated in an entity's balance sheet without jeopardizing the
integrity of its financial structure. The implementation of FAS 125 permits institutions to



                                             25
  capture the present value of the future income stream in the current period. This practice
  can assist in fueling asset and capital growth and expansion even though this future
  income is not guaranteed to materialize.

  During the period of 1997 until PTL's closure, regulatory guidelines did not address
  specifics pertaining to minimum or maximum amounts of IORRs that financial
  institutions could safely retain as part of their financial makeup. Regulatory examination
  reports can include a "Concentrations Page" that lists credits or items that exceed 25
  percent of Tier 1 Capital as a means of identifying potential problem areas. Each of the
  FDIC's full scope regulatory examination reports from 1997 until PTL's closure listed the
  IORRs as a concentration.

  Various formal and informal supervisory actions implemented from 1997 until 1999
  addressed the concentration problem and required reductions in the outstanding IORR
  balance. In addition to the increasing net income, which effectively raised capital,
  PAMM also infused capital contributions in an attempt to reduce the IORR
  concentration. However, the rapid expansion of the IORRs due to management's focus
  on this avenue as its principal business endeavor rendered management either unable or
  unwilling to comply with the provisions of the enforcement actions.

 Table 5 illustrates the various balances of the IORRs, total assets, and total capital since
 the implementation of FAS 125. As indicated by table 5, the balance of the IORRs
 habitually exceeded 25 percent of the institution's total capital, which would cause the
 IORRs to be considered a concentration and represented more than an inordinate
 percentage of PTL's asset base.
Table 5: Quarterly Values for the IORRs, Total Assets, and Equity Capital ($000's omitted)
                                          % of IO        Total Equity % of IO Residual
    Date         IO          Total       Residual to       Capital     to Total Equity
               Residual     Assets      Total Assets                       Capital
  03/31/97       10,802        97,486            11.08          15,713            68.75
  06/30/97       17,469      114,306             15.28          17,362           100.62
  09/30/97       22,513      126,346             17.82          17,683           127.31
  12/31/97       29,205      160,333             18.22          18,914           154.41
  03/30/98       37,058      151,225             24.51          19,325           191.76
  06/30/98       46,107      167,237             27.57          19,393           237.75
  09/30/98       47,103      181,594             25.94          18,017           261.44
  12/31/98       49,246      181,229             27.17          12,382           397.72
  03/31/99       48,401      155,083             31.21          10,206           474.24
  06/30/99       48,852      146,189             33.42           8,690           562.16
  09/30/99       48,847      127,342             38.36           6,298           775.60
  Source: Call Reports (1997 - 1999) submitted to the FDIC by PTL.

  The IORRs aspect of the securitization process consumed PTL's business strategy. In the
  fall of 1998, the Asian economic crisis caused a downturn in the securitization markets.
  One of the hardest hit activities was the subprime lending area. The securitizing firms



                                              26
could not sell the securities composed of subprime loans to investors. As a result, the
market for purchasing subprime loans from financial intermediaries declined. Because of
its heavy concentration in subprime loan holdings, PTL was faced not only with
dwindling income and declining capital but with severe liquidity concerns as well. PTL
could not sell the loans on its books; therefore, additional loans could not be extended
because of PTL's limited cash resources. Since the subprime securitization business
consumed the largest percentage of the thrift's business activities, income from other
sources was insufficient to maintain the institution's capital at acceptable levels.

Figure 5 illustrates the surge in net income due to the recording of the income associated
with the IORRs during 1997, its rapid decline during the Asian economic crisis in 1998,
and its continued downward spiral after the practice of retaining IORRs ceased. Because
of the intense concentration in this one business venture of IORRs, PTL was unable to
derive income from other sources in sufficient quantities to maintain adequate capital
levels, which ultimately led to the thrift's closure.

                                  Figure 5: Net Income ($000’s omitted)
$8,000


$6,000


$4,000


$2,000


    $0
           12/89 12/90 12/91 12/92 12/93 12/94 12/95 12/96 3/97   6/97   9/97 12/97 3/98   6/98   9/98 12/98 3/99   6/99   9/99

($2,000)


($4,000)


($6,000)


($8,000)



Source: Call Reports submitted to the FDIC by PTL.

Conclusion

Despite banking regulators' attempts to curtail the concentration in the IORRs through
criticisms in the Reports of Examination and by issuing various enforcement actions,
PTL took limited actions to reduce the concentration in the IORRs. The FDIC did not
have any policies or procedures in place governing the volume of IORRs in relation to
total capital that an institution could hold. In order to protect financial institutions from
the risks in IORRs, acceptable parameters of IORRs to capital need to be developed. In


                                                         27
the event that the proposed rulemaking for amending Part 325 takes an extended amount
of time, DOS needs to devise a method to limit the amount of IORRs held by financial
institutions as a percent of capital.

Recommendation

We recommend that the Director of the Division of Supervision:

(2) Develop an approach for limiting interest-only residuals to an amount that will not
   impair the capital protection of the institution.


Parent Companies of Industrial Loan Companies Escape Inclusion Under the Bank
Holding Company Act and Are Unregulated Entities

Because of the unique characteristics of industrial loan companies, their parent or holding
companies are not subject to the Bank Holding Company Act (BHCA) and are therefore
unregulated by federal banking authorities. PTL was an industrial loan company
organized under the California Industrial Loan Laws. As an industrial loan company,
PTL issued "thrift certificates," which are similar to a bank's certificates of deposit.
However, PTL did not accept demand deposits, including items such as checking
accounts that permit the withdrawal of funds from an account by a third party. PAMM
was the holding company that owned the stock of PTL. The BHCA lists a definition for
"banks." Entities that do not accept demand deposits are not considered banks under the
BHCA. Even though PAMM owned PTL, a financial institution, PTL was not
considered a bank. Therefore, since PTL was not considered a bank for purposes of the
BHCA, PAMM was excluded from the provisions of the BHCA. PAMM was not
regulated as a bank holding company and was not examined by any bank regulatory
agency.2

Because of PTL and PAMM's unique working relationship, operating from the same
physical locations and using the same management team and loan personnel, it appeared
that the entities were not separate and distinct companies. The lines became blurred and
management viewed the two entities as one operating concern.

Even though PAMM was not subject to the BHCA provisions, its activities were
restrained by the Federal Reserve Act since it was considered an "affiliate" of PTL.
Since 1993, the FDIC cited PAMM for numerous violations of the Federal Reserve Act's
Sections 23A and 23B, which pertain to transactions between financial institutions and
their affiliated entities. PAMM was able to borrow money to advance the growth of
PTL's loan underwriting of subprime loans in order to facilitate the securitization process
to the third-party securitizers. These borrowings aided in increasing the asset size of PTL
by providing the cash resources so PTL could extend credit, then subsequently sell the
loans for securitization and retain portions of the IORRs for PTL and PAMM. The

2
  Bank holding companies under the purview of the Bank Holding Company Act of 1956 are examined and
regulated by the Federal Reserve Board.


                                                28
California Industrial Loan Laws precluded PTL from directly borrowing the substantial
amount of funds that PAMM was able to access. PTL's management was able to
circumvent the industrial loan laws by allowing PAMM to become the borrower. While
PAMM was incurring monumental amounts of debt, no federal agency was present to
regulate these activities. The major problem with the borrowing arrangement was
whether or not PAMM had the financial wherewithal to repay the debt on a stand-alone
basis without relying on PTL for financial support. Also, PAMM's portion of the IORRs
may not have been sufficient to retire the debt. PTL was deferring the receipt of any cash
flow until PAMM's debt was extinguished. If the cash flows were less than the
forecasted amounts, both portions of the IORRs may have been required to service the
debt. Therefore, neither PTL nor PAMM would receive any cash flow from the IORRs.

There were numerous financial transactions between PAMM and PTL. In addition to
PAMM's borrowings, there were transactions pertaining to the purchase and sale of loans
between the parent and its subsidiary. Also, the cash advances received from the
securitizing firms were downstreamed from PAMM to PTL. PAMM also made
numerous capital contributions to PTL, including one that required reversing by the
regulators because of its failure to conform with generally accepted accounting
principles. Finally, there were the intercompany agreements between PTL and PAMM
regarding the percentage ownerships in the IORRs and the pledging of PTL's assets to
secure PAMM's debt. All of these financial transactions occurred without the benefit of
regulatory oversight prior to their occurrence.

In January 1998, the DOS San Francisco Regional Office (SFRO) contacted the FDIC's
Legal Division to determine whether the FDIC could examine PAMM at the next safety
and soundness examination of PTL. The most recent examination of PTL revealed
serious concerns about its operations and transactions with PAMM. Specifically, PAMM
was providing a number of services for PTL and was, in turn, entitled to a share of certain
assets. The April 27, 1998 examination included a review of transactions between PTL
and PAMM. The examination revealed a transaction whereby PAMM was accepting
responsibility for PTL's income tax liability and considering that amount to be a capital
contribution to PTL. This transaction was promptly disallowed by the regulators and
reversed from PTL and PAMM's records. Also, apparent violations of Sections 23A and
23B of the FRB's regulations, transactions with affiliates, were also noted.

In 1998, the FDIC's Legal Division responded to an inquiry by DOS and informed DOS
that it had access to PAMM through section 10(b) of the FDI Act. DOS did not need any
special intervention from the Legal Division to obtain access to the records of the holding
company. The Legal Division representative also stated that if such a situation should
arise with DOS needing access to a holding company's records, examiners should contact
the Legal Division and apprise them of the circumstances so that the Legal Division
would be prepared if the situation between the examiners and the institution should
escalate.




                                            29
Conclusion

Because of the unregulated nature of holding companies associated with industrial loan
companies (ILCs), the transactions between the two entities may not be routinely subject
to review by regulatory agencies. Since access to the holding companies is available
under section 10(b) of the FDI Act, it is imperative that material transactions between
unregulated holding companies and their banking subsidiaries be reviewed by regulators
during safety and soundness examinations.

Recommendations

We recommend that the Director of the Division of Supervision:

(3) Send a memo to DOS staff reminding them that they have access to examine the
records of affiliated entities under section 10(b) of the FDI Act.

(4) Instruct DOS examiners that when they examine industrial loan companies, DOS
should routinely review intercompany transactions with unregulated holding companies.


Lack of Access to External Accounting Firm's Workpapers Further Delays DOS's
Assessment of the Valuation of the IORRs

DOS was unable to access the workpapers of the external accounting firm that was
performing the external valuations of the IORRs. Since the IORRs had no active market,
PTL relied on its own internal model and the external valuations to assess the values of
the IORRs. Because DOS examiners could not initially review Ernst and Young's (E&Y)
workpapers, they were unable to obtain a full understanding of the process used by E&Y,
review the derivation of the variables used by E&Y, and fully comprehend E&Y's
conclusions.

PTL Instructed to Obtain an Independent Valuation

As discussed earlier, PTL actively began their securitizing activities in 1997 with the
advent of FAS 125. When the first examination, dated March 3, 1997, was conducted
after the securitizing activities began, there was little information available to the
examiners regarding a valuation of the IORRs. After the completion of the March 1997
examination, the exam report recommended that PTL obtain a valuation of the IORRs
from an independent third party. PTL obtained an external valuation, which was
reviewed at the September 30, 1997 FDIC visitation. The visitation indicated that the
independent IORR model had several deficiencies, including flawed assumptions
regarding the prepayment, discount, and historical loss rates. A proposed MOU was
pending in early 1998 that would require PTL to obtain an independent third party
valuation. The proposed MOU included a provision for PTL to obtain prior written
consent from the FDIC before entering a contract for an annual independent valuation of
the IORRs. PTL submitted a February 18, 1998 proposal from E&Y to the SFRO. After



                                           30
   reviewing the proposal, the DOS case manager believed that the proposal was inadequate
   to provide a valuation to satisfy the FDIC's requirements. PAMM was under time
   constraints to meet the deadline for filing its 10K the quarterly report with the Securities
   and Exchange Commission (SEC). Because of these extenuating circumstances relating
   to the timely submission of PAMM's 10K report, the FDIC agreed to remove from the
   proposed MOU the provision requiring FDIC consent prior to entering a contract for an
   independent valuation. A revised MOU was subsequently issued requiring an
   independent third-party valuation. PTL selected E&Y to conduct the valuation, even
   though E&Y's earlier proposal was considered unacceptable by the SFRO personnel
   because of its failure to address all of the pertinent issues surrounding the IORRs.

   The FDIC did not receive a signed copy of the engagement letter/agreement between
   PAMM and E&Y and was not certain of the exact nature of the work contracted between
   the two parties or the type of work actually performed. In performing this material loss
   review, we were unable to locate a copy of the final agreement. A follow-up letter to
   PTL from E&Y dated May 11, 1999, stated, "We utilized the information provided to us
   as well as information gathered from public sources to objectively and independently
   prepare the prepayment, default and discount rate assumptions included in our report."

   Table 6 indicates the dates of the various valuations received by PTL from E&Y and the
   terminology used in the reports to describe the type of work performed by E&Y.

   Table 6: E&Y Valuation Reports

Valuation Date      Date of Report        Terminology Describing the Work Performed
   12/31/97               3/9/98      "…an analysis of the fair market value…"
   5/31/98               7/13/98      "…an analysis of the fair market value…"
   8/31/98               10/29/98     "…an analysis of the fair market value…"
   11/30/98              1/20/99      "…has calculated the present value…"
   12/31/98               3/1/99      "…has calculated the present value…"
   2/28/99                5/6/99      "…has performed certain agreed upon procedures
                                      relating to the calculation…"
    6/30/99           10/25/99        "…has performed certain agreed upon procedures
                                      relating to the calculation…"
   Source: E&Y's Valuation Reports (1997-1999)

   The valuations received prior to April 1999 consisted of the total IORRs held by PTL and
   PAMM. Consideration for the repayment of the cash advances was not included in the
   valuation. In April 1999, DOS informed PTL that an independent valuation of PTL's net
   amount of the IORRs (PTL's total percentage portion less the repayment of the cash
   advance) must be obtained. The DOS case manager conducted a follow-up telephone
   conversation with an individual from E&Y who was responsible for the oversight of the
   valuation to ensure that E&Y fully understood exactly what the FDIC wanted in the
   valuation. The E&Y representative then informed the case manager that E&Y had not
   performed "valuations." Instead, E&Y's work consisted of providing "agreed upon
   procedures" calculations, which meant that E&Y performed the calculations based on


                                                31
assumptions derived by PAMM and PTL. After several inquiries, the E&Y
representative informed the case manager that E&Y would not be conducting a net
calculation strictly for PTL's portion of the IORR. Even though the first three
"valuations" (3/98, 7/98, 10/98) expressly stated that they represented a "fair market
analysis" of the IORRs, E&Y stated that the values were calculations based on
assumptions provided by PTL and PAMM's management. Agreed upon procedures
would not meet the terms of the 1998 MOU or the subsequent 1998 Cease and Desist
Order.

A letter dated June 8, 1999 from E&Y indicates how E&Y defined the term "agreed upon
procedures." The letter stated that E&Y asked two of the "big five" accounting firms if
they were issuing fair market value opinions on IORRs. The firms indicated that work on
valuations of IORRs were based on "agreed upon procedures" which was the common
form of analysis. This approach uses a discounted cash flow methodology, which
according to E&Y is the accepted methodology for valuing cash flow interests.

FAS 125, Accounting for Transfers and Servicing of Financial Assets and
Extinguishment of Liabilities, details the specifics for recording the value of IORRs.
Paragraph 42 describes the fair value of an asset as the amount for which the asset can be
purchased or sold in an active market. Paragraph 43 states that in the absence of an
active market, the estimate of fair value can be determined based on the best information
available in the circumstances. FAS 125 states that an example of an acceptable
valuation technique is the present value of estimated expected cash flows using a
discount rate commensurate with the risks involved. Based on E&Y's description of their
process, we believe the valuation techniques used by E&Y went beyond agreed upon
procedures and complied with procedures for obtaining a "fair value" according to FAS
125. However, the assumptions E&Y used in their calculations were optimistic and
unsupported.

DOS Attempts to Gain Access to E&Y's Model and Workpapers

During the April 27, 1998 examination, DOS examiners attempted to obtain acess to
E&Y's model so that they could determine how the process worked if different variables
or assumptions were used. DOS examiners also wanted to review E&Y's workpapers so
they could determine exactly how E&Y derived several of the assumptions used in the
valuation process and to garner a better understanding of E&Y's conclusions. E&Y
refused to allow DOS access to its model, stating that the model was proprietary. Also,
E&Y refused to allow DOS access to its workpapers, stating that they were not available
for third-party review.

In January 1999, the SFRO sent an inquiry to the FDIC's Legal Division for assistance in
gaining access to E&Y's workpapers and the model used to value the assets. On March
12, 1999, the DOS drafted a letter to E&Y requesting access to the workpapers. On
March 22, 1999, E&Y responded that DOS could review the workpapers with a
representative from E&Y present and that selected items could be copied. At the April
26, 1999 examination, the examiners were able to review the historical default rates and



                                            32
the actual prepayment rates of the IORRs and compare the values with the assumptions
used by PTL and E&Y. DOS discovered that the actual default and prepayment rates
were much higher than the assumptions used by E&Y or PTL.

The DOS Examiner-in-Charge of the examination gave a detailed presentation to PTL's
Board on July 26, 1999, demonstrating the effects on the value of the IORRs using actual
performance versus using PTL and E&Y's assumptions. E&Y countered with a
presentation indicating support for its assumptions in valuing the IORRs. Nevertheless,
E&Y's presentation did not dissuade DOS examiners, and they classified a portion of the
IORRs "Loss" and the balance "Doubtful."

Conclusion

When DOS agreed to modify the MOU by eliminating their approval of PTL's contract
for calculation of the IORRs, DOS also eliminated its means of assuring that the work
performed would fully address its supervisory concerns. Since DOS did not receive a
signed formal copy of the engagement agreement/letter between PTL and E&Y, DOS
was unable to distinguish exactly the type of services that were being performed for the
institution. Because the verbiage in the earlier reports referred to "valuations," DOS
believed that E&Y was providing services required by the MOU and the C&D even
though E&Y later disputed this claim. Because of the disputes arising from this
situation, we believe controls should be implemented to specify exactly what is required
or expected from third parties to preclude future disagreements surrounding actions that
the FDIC requests of an institution.

Recommendation

We recommend that the Director of the Division of Supervision:

(5) Issue instructions that when DOS directs a financial institution to contract with a third
party to perform additional work to clarify an issue for the FDIC, DOS should implement
procedures to ensure that the parameters of the work to be performed are responsive to
the requirements established by the FDIC and that provisions will be included allowing
the FDIC access to all pertinent workpapers.


DOS'S ACTIVITIES IN RESPONSE TO RECENT BANK FAILURES

The failures of BestBank in Boulder, Colorado; First National Bank of Keystone in
Keystone, West Virginia; and Pacific Thrift and Loan Company in Woodland Hills,
California were either related to subprime lending and securitization activities or both.
DOS, in conjunction with the other federal regulators, has developed and implemented
several examination policies and procedures addressing the risks associated with these
activities. Also, DOS and the other regulatory agencies have initiated a rulemaking
process to re-evaluate the inclusion of IORR income based on subprime securitizations in
the capital accounts of financial institutions. DOS has instituted study aids for examiners



                                             33
and case managers to familiarize them with IORRs. Table 7 sumnmarizes DOS's recent
and planned initiatives in the area of subprime lending and asset securitization.




                                        34
Table 7: DOS Initiatives



DATE                              GUIDANCE

March 1, 1999       Interagency Guidance on Subprime Lending
                    FIL-20-99

August 1, 1999      Revisions to Capital Markets Examination
                    Handbook; Modifications to Chapters Covering:
                    q Mortgage Derivative Securities
                    q Asset-Backed Securities
                    q Structured Notes
                    q Securitization Chapter


October 12, 1999    Interagency Guidance on High Loan-to-Value
                    Residential Real Estate Lending
                    FIL-94-99

December 13, 1999   Interagency Guidance on Asset Securitization
                    Activities
                    FIL-109-99

January 24, 2000    Subprime Lending Examination Procedures
                    DOS Memorandum

February 28, 2000   Securitization Examination Procedures
                    DOS Memorandum

March 6, 2000       Retained Interests Self-Study Guide
                    DOS Securities, Capital Markets, & Trust Branch

May 16-19, 2000     Regional Capital Markets and Securities Specialist
                    Seminar will include 2 days of training with a
                    particular emphasis on retained interests.

Draft Form          Action: Notice of Proposed Rulemaking
                    Capital; Risk-Based Capital Guidelines; Capital
                    Adequacy Guidelines; Capital Maintenance:
                    Retained Interest



Source: DOS




                                  35
DOS has implemented measures to combat potential abuses of emerging capital markets
issues. It is developing methods to enhance the knowledge and skills of the DOS
examination force. DOS is also seeking regulatory remedies to protect the integrity of
financial institutions' capital structures through current rulemaking initiatives. The OIG
is supportive of DOS's actions in achieving their immediate results and continues to
support their ongoing efforts to protect the bank insurance fund.


CORPORATION COMMENTS AND OIG EVALUATION

On May 26, 2000, the Director, DOS, provided a written response to the draft material
loss review. The Director, DOS, stated that he concurs with the report's
recommendations. The Corporation, in conjunction with the other federal regulators, has
initiated proposed rulemaking to limit and/or eliminate the inclusion of IORRs associated
with subprime securitizations in the calculation of Tier 1 leverage capital and to place
restrictions on the amount of IORRs that can be retained as a percentage of capital. The
Director, DOS, has agreed to send a memorandum reminding examiners of their authority
to examine affiliated entities under section 10(b) of the FDI Act. The Director, DOS,
also stated that a short e-mail would be sent to the Regional Directors in the three regions
(San Francisco, Dallas, and Kansas City) that currently have ILCs that show no bank
holding company affiliation reminding them to review pertinent transactions between the
holding companies and the ILCs. DOS agreed to draft procedures governing work
contracted by financial institutions with third parties to ensure that the parameters of the
work to be performed are responsive to the requirements established by the FDIC and
that provisions will be incorporated allowing the FDIC access to all pertinent
workpapers.

The Corporation's response to the draft report and subsequent conversations with
management provided the elements necessary for management decisions on the report's
recommendations. Therefore, no further response to this report is necessary. Appendix
II presents management's response to the draft report and Appendix III presents
management's proposed actions on our recommendations and shows that there is a
management decision for each recommendation in this report.




                                             36
GLOSSARY



Affiliate            Any individual or organization that can exercise “corporate control”
                     over a bank through stock ownership or positions on the Board of
                     Directors as defined by section 23A of the Federal Reserve Act.

Bankruptcy-          In the asset securitization process, the loan originator sells and transfers
remote Entity/       the pools of assets to either a bankruptcy-remote entity, which is like a
Special Purpose      grantor trust or a special purpose corporation. They will issue the
Corporation          securities or ownership interests in the cash flows of the underlying
                     collateral. These corporate structures pay the originator for those assets
                     with the proceeds from the sale of the securities. They are typically
                     protected from bankruptcy by various structural and legal arrangements.
                     They are usually unrelated to the originator and its sole assets are those
                     being securitized.

CAMEL(S) Rating The FDIC and other financial institution regulators use the Uniform
                Financial Institutions Rating System (UFIRS) to evaluate a bank's
                performance. Areas of financial and operational concern are evaluated
                and given a numerical rating of “1” through “5,” with “1” having the least
                concern and “5” having the greatest concern. The performance areas,
                identified by the CAMEL acronym are: Capital Adequacy,
                Asset Quality, Management, Earnings, and Liquidity. A sixth component,
                Sensitivity to Market Risk, was added in December 1996 changing the
                acronym to CAMELS.

Call Report          An institution’s quarterly Consolidated Report of Condition and
                     Income which contains a balance sheet, income statement, and other
                     detailed financial schedules containing information about the institution.

Cease and Desist     A formal enforcement action issued by a financial institution's regulator’s
Order (C&D)          to a bank or affiliated party to stop an unsafe or unsound practice or
                     violation. A C&D may be terminated by the regulator when the bank’s
                     condition has significantly improved and the action is no longer needed or
                     the bank has materially complied with its terms.




                                           37
Composite Rating   An overall rating given to a bank based on the six components of
                   the CAMELS rating. A rating of “1” through “5” is given, with “1”
                   having the least regulatory concern and “5” having the greatest concern.
                   A description of the ratings is as follows:

                   Rating        Indicates strong performance, significantly higher than
                   “1”           average.
                   Rating        Reflects satisfactory performance, performance which is
                   “2”           average or above: this includes performance that adequately
                                 provides for the safe and sound operation of the bank.
                   Rating        Represents performance that is flawed to some degree and as
                   “3”           such is considered fair. It is neither satisfactory nor
                                 unsatisfactory but is characterized by performance that is
                                 below-average quality.
                   Rating        Refers to marginal performance, significantly below average.
                   “4”           If left unchecked, such performance might evolve into
                                 weaknesses or conditions that could threaten the viability of
                                 the institution.
                   Rating        Considered unsatisfactory; performance that is critically
                   “5”           deficient and in need of immediate remedial attention. Such
                                 performance, by itself or in combination with other
                                 weaknesses, threatens the viability of the institution.
Concentration      A concentration is a significantly large volume of economically-related
                   assets that an institution has advanced or committed to one person, entity,
                   or affiliated group. These assets may in the aggregate present a
                   substantial risk to the safety and soundness of the institution. A
                   concentrations schedule is one of the pages that may be included in the
                   FDIC's Report of Examination. As a general rule, concentrations are
                   listed by category according to their aggregate total and are reflected as a
                   percentage of Tier 1 Capital.
Credit             Credit enhancements may be either internal or external. Internal
Enhancements       enhancements are created by redirecting internal cash flows. Examples
                   include senior-subordinate structures and cash reserve accounts funded by
                   the originator. External credit enhancements are not dependent on
                   redirecting internal cash flows. Examples include letters of credit issued
                   by banks, surety bonds issued by insurance companies, guarantees issued
                   by financial assurance companies, and subordinated loans from third
                   parties.
Division of        The division of FDIC which exists to plan and efficiently handle the
Resolutions and    resolutions of failing FDIC-insured institutions and to provide prompt,
Receiverships      responsive, and efficient administration of failing and failed financial
(DRR)              institutions.
Leverage Capital   Banks must maintain at least the minimum leverage requirement set forth
                   in Part 325 of the FDIC Rules and Regulations. The minimum leverage
                   requirement consists only of Tier 1 (Core) capital.


                                        38
Memorandum of       An informal administrative action between a bank’s Board of Directors
Understanding       and the regulators to take certain corrective actions on specific
(MOU)               regulatory concerns. The termination of an MOU should be considered
                    when the bank’s overall condition has significantly improved and the
                    bank has substantially complied with its terms.

Par Value           The nominal or face value of a stock or bond certificate or loan. It is
                    expressed as a specific amount marked on the face of the instrument. Par
                    value is not related to market value, which is the amount a buyer is
                    willing to pay for an item.

Prompt Corrective   Section 38 of the FDI Act establishes a framework for taking prompt
Action (PCA)        supervisory actions against insured banks that are not adequately
                    capitalized. The following categories and minimum ratio requirements are
                    used to describe capital adequacy:

                    Well Capitalized: Total risk-based capital ratio of 10% or greater; and
                                      Tier 1 risk-based capital ratio of 6% or greater; and
                                      Leverage ratio of 5% or greater; and is not subject to
                                      any written agreement, order, capital directive, or
                                      prompt corrective action directive issued by the FDIC
                                      pursuant to section 8 of the FDI Act, or any regulation
                                      thereunder, to meet and maintain a specific capital
                                      level for any capital measure.

                    Adequately        Total risk-based capital ratio of 8% or greater; and
                    Capitalized:      Tier 1 risk-based capital ratio of 4% or greater; and
                                      Leverage ratio of 4% or greater or 3% or greater if the
                                      bank is rated composite "1" under the CAMELS rating
                                      system in the most recent examination of the bank and
                                      is not experiencing or anticipating significant growth.

                    Undercapitalized: Total risk-based capital ratio that is less than 8%; or
                                      Tier 1 risk-based capital ratio that is less than 4%; or
                                      Leverage ratio that is less than 3% if the bank is rated
                                      Composite "1" under the CAMELS rating system in the
                                      most recent examination of the bank and is not
                                      experiencing or anticipating significant growth.

                    Significantly     Total risk-based capital ratio that is less than 6%; or
                    Undercapitalized: Tier 1 risk-based capital ratio that is less than 3%; or
                                      Leverage ratio that is less than 3%.

                    Critically        Tangible equity to total assets ratio that is equal to
                    Undercapitalized: or less than 2%.




                                          39
Risk-Based           A “supplemental” capital standard under part 325 of the FDIC Rules and
Capital              Regulations. Under the risk-based framework, a bank’s qualifying total
                     capital base consists of two types of capital elements, "core capital"
                     (Tier 1) and "supplementary capital" (Tier 2).
Risk-Weighted        A system of calculating the risk-weighting of assets by assigning assets
Assets               and off-balance sheet items to broad risk categories.
Section 10(b) of     Section 10(b) lists the power of the Board of Directors to appoint
the FDI Act          examiners to conduct regular and special examinations of financial
                     institutions. Also, examiners shall have the power, on behalf of the
                     Corporation, to make such examinations of the affairs of any affiliate of
                     any depository institution as may be necessary to disclose fully the
                     relationship between the institution and its affiliate and the effect of the
                     relationship on the institution.
Section 10(c) of the Section 10(c) of the FDI Act authorizes the appropriate federal banking
FDI Act              agency to administer oaths and affirmations, and to examine and take and
                     preserve testimony under oath as to any matter with respect to the affairs
                     or ownership of any such bank, institution or affiliate.
Section 23(A) of     Section 23(A) of the Federal Reserve Act establishes restrictions on
the Federal          transactions between financial institutions and their affiliates. They
Reserve Act          include restrictions on the amount of the transactions and collateral
                     requirements for certain transactions with affiliates.
Section 23(B) of     Section 23(B) of the Federal Reserve Act also places restrictions on
the Federal          transactions with affiliates. It requires transactions to be on the same
Reserve Act          terms and standards or at least as favorable as those prevailing for
                     comparable transactions with a nonaffiliate. In the absence of comparable
                     transactions, they must be on terms and circumstances that in good faith
                     would be offered to or apply to nonaffiliated companies.
Sold With            A general ledger term meaning that the purchaser of a financial asset from
Recourse             an original creditor has a claim on the original creditor in case the debtor
                     defaults. Specific arrangements to provide recourse arise in a variety of
                     innovative transactions, including various types of securitized assets.
                     Such arrangements can take many forms, including an explicit guarantee
                     that credit losses will be reimbursed or the assets will be replaced by
                     assets of similar quality, or indemnification by a third-party guarantor for
                     any losses.
Subprime             A borrower whose credit is below good credit standards and whose loans
borrower             are usually referred to as marginal, nonprime or below “A” quality loans.
                     These borrowers pose a greater risk and are characterized by paying debts
                     late, filing for personal bankruptcy and/or having an insufficient credit
                     history.




                                           40
Tier 1 (Core)      Defined in Part 325 of the FDIC Rules and Regulations and is the sum of :
Capital            • Common stockholder’s equity (common stock and related surplus,
                   undivided profits, disclosed capital reserves, foreign currency translation
                   adjustments, less net unrealized losses on available-for-sale securities
                   with readily determinable market values);
                   • Non-cumulative perpetual preferred stock; and
                   • Minority interest in consolidated subsidiaries;
                       Minus
                   • Intangible assets;
                   • Identified losses;
                   • Investments in securities subsidiaries subject to section 337.4; and
                   • Deferred tax assets in excess of the limit set forth in section 325.5(g)
                       of the FDIC Rules and Regulations.
Tier 2             Tier 2 Capital is defined in Part 325 of the FDIC Rules and Regulations
(Supplemental)     and is generally the sum of:
Capital            • Allowances for loan and lease losses, up to a maximum of 1.25% of
                   risk-weighted assets;
                   • Cumulative perpetual preferred stock, long-termed preferred stock and
                   related surplus;
                   • Perpetual preferred stock (dividend is reset periodically);
                   • Hybrid capital instruments; and
                   • Term subordinated debt and intermediate-term preferred stock.
Tier 1 Leverage    Tier 1 Capital divided by total assets.
Capital Ratio
Total Risk-Based   The total qualifying capital divided by risk-weighted assets.
Capital ratio
Uniform Bank       A report prepared by FDIC comparing an individual bank with its peer
Performance        Group banks.
Report (UBPR)
Warehousing        The borrowing of short-term funds by a mortgage banker, using
                   permanent mortgage loans as collateral. This interim financing is used to
                   carry mortgages in inventory until they are sold and delivered to a
                   permanent investor.




                                        41
                                        APPENDIX I

       A DETAILED DISCUSSION OF THE SECURITIZATION PROCESS


The Securitization Process and the Parties Involved

In its simplest form, the securitization process begins by segregating loans into
homogeneous pools with respect to cash flow characteristics or risk profiles. These pools
are then transferred to a bankruptcy-remote entity such as a special purpose corporation
that issues securities in the underlying collateral. There are several intervening roles that
are interspersed between these two steps. Some of the different roles included in the
securitization process are those of servicers, trustees, and guarantors. Each security issue
has a servicer who is responsible for collecting the principal and interest payments and
for transmitting these funds to either a trust or to the investors. A trustee monitors the
activities of the servicer to ensure that it properly fulfills its responsibilities. A guarantor
may be involved in the process. The guarantor's responsibility is to ensure that investors
receive their payments in a timely manner, even if the servicer has not collected the funds
from the obligors.


Credit Enhancements Increase the Protection Against Losses to the Investor

The structure of a mortgage backed security (MBS) and the terms of investors' interests
in the collateral can vary considerably. They will depend on factors such as the type of
collateral, the wants and needs of investors, and the use of credit enhancements. Often
the securities are structured to re-allocate the risks entailed in the underlying collateral
into subparts or tranches that match the needs of the investors.

For example, two classes of tranches may be offered on an MBS. The first tranche is a
senior class. The second tranche is a junior or subordinated class. The senior tranche has
more protection against credit losses than the junior subordinated tranche since it will
receive its payments first and the junior class will absorb any of the initial losses before
the senior class absorbs any losses. Therefore, as the interest rate paid is in proportion to
the level of risk accepted, the interest rate paid on the senior tranche will be less than the
interest rate paid on the junior tranche. After the requirements of the senior class are
fulfilled, the junior class will receive any remaining cash flow from the securities. The
higher risk of loss to the junior class is rewarded with a potential higher return on
investment. Generally, the higher the risk, the higher the potential return. Therefore, the
structure of an MBS offers one form of protection against losses.

Other ways to enhance the senior classes are with credit enhancements. Privately issued
MBSs generally rely on a form of credit enhancement provided by the originator or a
third party to protect investors from credit losses. Recourse provisions are guarantees
that require the originator to cover any losses up to a contractually agreed-upon amount.
These provisions are usually in the form of a spread account. This is an account that is



                                               42
established with the difference between the interest earned on the assets in the pool and
the interest that is paid out to investors. These funds accumulate to an agreed-upon level
to protect against losses in the securities. This interest spread is accumulated to repay
investors in the event that unexpected losses occur. Overcollateralization is another form
of credit enhancement. This occurs when the value of the underlying assets exceeds the
face value of the security. Because the collateral is worth more than the amount owed to
investors, there is a margin of protection against unanticipated losses.


Interest-Only Residuals: A By-Product of the Securitization Process

Other types of financial instruments may arise as a result of the securitization process.
One of these is the residual interest. The residual interest represents claims on the cash
flows that remain after all obligations to investors and any related expenses have been
paid, which normally include funds to build reserves and pay loan losses, servicing fees,
and liquidation expenses. When the loans for the pools originate, they bear a stated
interest rate. The securities are issued to investors at a lower rate than the stated rate on
the loans. The difference between the rate that the loans are paying versus what the pools
are paying to investors is called the residual. Residuals may be retained by the sponsors
of the securities or purchased by investors in the form of securities known as interest-only
strips. Table 8 illustrates a simplified calculation for excess residual interest.


       Table 8: Calculation of Excess Residual Interest


        BEGIN WITH:            Gross Interest

        LESS:                  Pass Through Rate to Investors
                               Delinquency Advances (Net of recoveries)
                               Servicer's Fees
                               Servicing Advances & Liquidation Expenses
                               Reserve Deposits
                               Realized Losses

        PLUS:                  Prepayment Penalties Collected
                               Interest on Reserves

        EQUALS:                Excess, or Residual Interest



       Source: FDIC's DRR




                                             43
Of the above-mentioned components, the one that can cause the most concern is that of
the realized losses. When valuing the interest-only residual receivables (IORRs),
assumptions have to be made regarding prepayment, discount, and default/loss rates. In
PTL's case, when valuing the IORRs, the realized losses were estimated since there were
no historical loss rates for these types of instruments. Therefore, there was no established
foundation upon which to base a more informed assumption. If the actual losses are in
excess of the projections, the excess interest will decline, and the value of the IORRs will
be reduced.




                                             44
                                                                                       APPENDIX II
                                            CORPORATION COMMENTS

         Federal Deposit Insurance Corporation
         550 17th Street, NW, Washington, DC 20429                                         Division of Supervision




MEMORANDUM TO:                                  Gaston L. Gianni, Jr.
                                                Inspector General



FROM:                                           James L. Sexton
                                                Director

SUBJECT:                                        Audit Memorandum Regarding Results of OIG Material
                                                Loss Review of Pacific Thrift & Loan,
                                                Woodland Hills, California


We appreciate the opportunity to respond to the five suggestions set forth by the Office of
Inspector General (OIG) in their Material Loss Review of the Failure of Pacific Thrift & Loan
(PTL), Woodland Hills, California.

RECOMMENDATIONS

The OIG recommends that the Director of the Division of Supervision (DOS):

1. “Continue to pursue amending the capital standards to exclude IORRs (defined in OIG’s
   memorandum as interest-only residual receivables) on subprime securitizations from the
   calculation of Tier 1 Leverage Capital.”
                                       AND
2. “Develop an approach for limiting interest-only residuals to an amount that will not impair
   the capital protection of the institution.”

DOS concurs with these recommendations. As noted in the OIG’s Memorandum, DOS has been
working, on an interagency basis, to limit or eliminate the amount of IORRs, which can be
included in the calculation of Tier 1 Leverage Capital. On April 18, 2000, the Supervision Task
Force of the Federal Financial Institutions Examination Council (FFIEC) supported a consensus
for a proposal that would require that “dollar-for-dollar” capital be held against the value of
residual interests retained or assumed by an institution resulting from securitization activities.
The proposal will also restrict undue concentrations in IORRs by placing retained interests
within the 25% of Tier 1 capital sublimit already established for nonmortgage servicing assets
and purchased credit card relationships for regulatory capital purposes. Any amount above this
limit will be deducted from Tier 1 capital. By combining the two approaches, both the risk-
based and the leverage ratios can be impacted, and the approaches will serve as a supervisory
governor on the creation of residual interests. The proposal will continue to proceed along the
normal route, including final approval by the FFIEC, and a public comment period, with the
ultimate objective of amending the current capital adequacy standards. Given that much



                                                          45
coordination is necessary with other agencies, the ultimate timetable for completion is difficult to
predict.


3. “Send a memo to DOS staff reminding them that they have access to examine the records of
   affiliated entities under section 10 (b) of the FDI Act.”

DOS concurs with this recommendation. The DOS Manual of Examination Policies explains the
authority to examine affiliated entities under Section 10 (b) of the FDI Act in the sections
entitled “Basic Examination Concepts and Guidelines” and “Related Organizations”. The
Manual also emphasizes that no examination under the authority of Section 10 (b) is to be made
without prior clearance from the Regional Office. We believe that DOS staff is aware of this
authority, but in the PTL case, given the infrequent use of this authority, DOS contacted the
Legal Division out of an abundance of caution. The OIG’s Memorandum also states that “The
Legal Division representative also stated that if such a situation should arise, DOS needing
access to a holding company’s records, examiners should contact the Legal Division and apprise
them of the circumstances so that the Legal Division would be prepared if the situation between
the examiners and the institution should escalate.” We will send a reminder to examiners
regarding 10 (b) authority by the third quarter of 2000.


4.    “Instruct DOS examiners that when they examine industrial loan companies, DOS should
     routinely review intercompany transactions with unregulated holding companies.”

DOS concurs with this recommendation. DOS has identified 44 nonmember industrial loan
companies, that show no holding company affiliation, which means either there is no holding
company involved or that the holding company is not regulated by a Federal bank regulatory
agency. Of these 44 institutions, 38 are located in the San Francisco Region (where PTL was
located), four are in the Dallas Region and two are in the Kansas City Region. It is felt that with
such a small group of potentially affected institutions in only three regions, that a short e-mail
directed to the Regional Directors of the affected regions will suffice. This will be accomplished
by the third quarter of 2000.


5. “Issue instructions that when DOS directs a financial institution to contract with a third
   party to perform additional work to clarify an issue for the FDIC, DOS should implement
   procedures to ensure that the parameters of the work to be performed are responsive to the
   requirements established by the FDIC and that provisions will be included allowing the
   FDIC access to all pertinent workpapers.”

DOS concurs with this recommendation. We will draft such procedures and issue them by the
fourth quarter of 2000.




                                                46
                                                                                                                               APPENDIX III


                                       MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its recommendations in its
semiannual reports to the Congress. To consider FDIC’s responses as management decisions in accordance with the act and related guidance,
several conditions are necessary. First, the response must describe for each recommendation

   § the specific corrective actions already taken, if applicable;
   § corrective actions to be taken together with the expected completion dates for their implementation; and
   § documentation that will confirm completion of corrective actions.
If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons
for any disagreement. In the case of questioned costs, the amount FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.
Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation
confirming completion of corrective actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions.
The information for management decisions is based on management’s written response to our report and subsequent discussions with
management.




                                                                      47
                                                                         Expected      Documentation                      Management
 Rec.                                                                   Completion    That Will Confirm        Monetary   Decision: Yes
Number        Corrective Action: Taken or Planned/Status                   Date         Final Action           Benefits      or No
         DOS is currently working with the other federal
         regulatory agencies to limit and/or eliminate the amount                     The revised capital
         of IORRs based on subprime securitizations that can be                       standards if the
                                                                        4th Quarter
  1      included in Tier 1 Leverage Capital. On April 8, 2000,                       proposed rulemaking        NA           Yes
                                                                            2000
         the Supervision Task Force supported a consensus for a                       is finalized in its
         proposal that would require dollar-for-dollar capital to                     current form.
         be held against the value of the IORRs.
         The proposal mentioned in #1 would also restrict undue
         concentrations in IORRs by placing them within the
         25% of Tier 1 Capital sublimit established for                               The revised capital
         nonmortgage servicing assets and purchased credit card          th           standards if the
                                                                        4 Quarter
  2      relationships for regulatory capital purposes. The                           proposed rulemaking        NA           Yes
                                                                          2000
         proposal will continue to proceed along the proper                           is finalized in its
         channels including approval by the FFIEC and a public                        current form.
         comment period with the ultimate objective of
         amending the capital adequacy standards.
         DOS will send a reminder to examiners regarding their          3rd Quarter   The reminder sent to
  3                                                                                                              NA           Yes
         10(b) authority to examine affiliated entities.                    2000      DOS examiners.
         DOS will send a short e-mail to the Regional Directors
         of the three regions with ILCs that show no bank                             The e-mail sent to the
                                                                        3rd Quarter
  4      holding company affiliations to remind DOS examiners                         Regional Directors of      NA           Yes
                                                                            2000
         that they should review transactions between the                             the affected regions.
         holding companies and the ILCs.
         DOS will draft procedures governing work contracted
         by a financial institution with third parties to ensure that
         the parameters of the work to be performed are                 4th Quarter   The procedures
  5                                                                                                              NA           Yes
         responsive to the requirements established by the FDIC             2000      drafted by DOS.
         and that provisions will be incorporated allowing the
         FDIC access to all pertinent workpapers.


                                                                        48
